No. ______________________
IN THE
SUPREME COURT OF THE UNITED STATES
DERRICK WILLIAMS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
CERTIFICATE OF SERVICE
I, Josh Lee, a member of the Bar of this Court and an attorney appointed to
represent the Petitioner under the Criminal Justice Act of 1964, hereby certify pursuant to Sup. Ct. R. 29.5 that, on January 29, 2020, I served the Application for Extension of Time enclosed with this Certificate on all parties required to be served
under Supr. R. 29.4(a).
I served the following by enclosing a copy of the documents in an envelope and
delivering the envelope to Federal Express for delivery within 3 calendar days:
Noel J. Francisco
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2000
In addition, I transmitted an electronic version of the documents via email to:
The Solicitor General’s Office: SupremeCtBriefs@usdoj.gov

/s/ Josh Lee
JOSH LEE
Assistant Federal Public Defender
Appellate Division

Counsel of Record for the Petitioner

2

